2311] Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

I, Andrew Cockle, of lawful age, being di

E-Mail Address:
contact@cocklelegalbriefs.com

C@OCKLE

Legal Briefs

Est. 1923
Web Site
www.cocklelegalbriefs.com

No. 19-608
MARK ELSTER and SARAH PYNCHON,
Petitioners,
Vv.

THE CITY OF SEATTLE,
Respondent.

AFFIDAVIT OF SERVICE

uly sworn, upon my oath state that I did, on the 21st day of February, 2020, send out

from Omaha, NE | package(s) containing 3 copies of the PETITIONERS’ REPLY BRIEF IN SUPPORT OF PETITION
FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

To be filed for:
ETHAN W. BLEVINS
Counsel of Record
WENCONG FA
MOLLIE R. WILLIAMS
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: EBlevins@pacificlegal.org

Counsel for Petitioners

SEE ATTACHED

Subscribed and sworn to before me this 2 Ist day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

hens 0st Qudaw-h, Obl

Notary Public Affiant 39497
SERVICE LIST, ELSTER v. CITY OF SEATTLE, NO. 19-608

COUNSEL FOR RESPONDENT (3 COPIES)

Roger Wynne

Seattle City Attorney's Office
701 Fifth Avenue, Suite 2050
Seattle WA 98104

Phone: (206) 684-8200
Roger.Wynne@seattle.gov
